                                                           Issue Date
                                                                    March 13, 2007
                                                           Audit Report Number
                                                                        2007-KC-1005




TO:        Pat McCauley, Director, Community Planning and Development Division,
              Omaha Program Center, 7DD

           //signed//
FROM:      Ronald J. Hosking, Regional Inspector General for Audit, 7AGA

SUBJECT: The State of Nebraska Did Not Close HOME Projects in a Timely Manner


                                  HIGHLIGHTS

 What We Audited and Why

             We reviewed the HOME Investment Partnerships Program (HOME),
             administered by the State of Nebraska’s Department of Economic Development
             (State), in Lincoln, Nebraska. We audited the State because a recent U.S.
             Department of Housing and Urban Development (HUD) HOME risk assessment
             ranked the State as a high-risk recipient in HUD’s Region VII.

             Our objective was to determine whether the State was closing HOME-funded
             projects in accordance with HUD requirements.

 What We Found
             The State did not close HOME projects in HUD’s computer systems in a timely
             manner. It has made progress in properly closing several hundred past due
             projects, but many past due projects remain unresolved.

 What We Recommend
             We recommend that HUD verify that the State implements appropriate controls to
             ensure that it closes HOME projects in HUD’s data systems within the required



                                            1
           timeframes. We also recommend that HUD monitor the State’s progress in
           closing projects currently exceeding HUD’s required timeframes and ensure that
           the projects are closed properly and expeditiously.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response


           The State agreed with our conclusions. We provided the report to the State on
           February 26, 2007, and requested a response by March 9, 2007. The State
           provided written comments on March 13, 2007.

           The complete text of the auditee’s response can be found in appendix A of this
           report.




                                            2
                           TABLE OF CONTENTS

Background and Objectives                                                  4

Results of Audit
      Finding: The State Did Not Close HOME Projects in a Timely Manner    5

Scope and Methodology                                                      8

Internal Controls                                                         9

Appendix
   A. Auditee Comments                                                    10




                                          3
                     BACKGROUND AND OBJECTIVES

The U.S. Department of Housing and Urban Development (HUD) HOME Investment
Partnerships Program (HOME) is the largest federal block grant to state and local governments
designed exclusively to create affordable housing for low-income households. Each year it
allocates approximately $2 billion among the states and hundreds of localities nationwide.
Among the recipients of HOME funds is the State of Nebraska. Nebraska’s Department of
Economic Development (the State), located in Lincoln, Nebraska, administers the HOME
program for the state. The State does not directly administer the program but grants the funding
to subrecipients to accomplish program objectives. Subrecipients are public agencies or
nonprofit entities selected by recipients to administer HOME funds.

The State receives HOME funding annually from HUD and invests the funds in the following
housing activities:
   • Homeowner rehabilitation: Assists owner-occupants with the repair, rehabilitation, or
       reconstruction of their homes.
   • Homebuyer activities: Finance the acquisition and/or rehabilitation or new construction
       of homes for homebuyers.
   • Rental housing: Acquires and/or rehabilitates or constructs affordable rental housing.

For the State’s fiscal years 2004 through 2006, HUD provided it more than $16.5 million in
HOME funding.

   Fiscal      HOME Investment            HOME American Dream
    year      Partnerships Program        Downpayment Initiative                  Total
   2004            $ 5,485,713                  $517,055                       $ 6,002,768
   2005            $ 5,333,377                  $159,591                       $ 5,492,968
   2006            $ 5,010,987                  $ 79,635                       $ 5,090,622

Our objective was to determine whether the State was closing HOME-funded projects in
accordance with HUD requirements, including closing individual projects in HUD’s HOME fund
tracking system, the Integrated Disbursement and Information System.




                                                4
                                RESULTS OF AUDIT

Finding: The State Did Not Close HOME Projects in a Timely Manner
The State did not close HOME projects in HUD’s computer systems in a timely manner. This
deficiency occurred because the State did not have adequate controls in place to ensure that it
followed applicable laws and regulations. Failure to properly update HUD’s data caused HUD
to understate HOME accomplishments nationally, negatively affected the State’s performance
ratings, and can cause unnecessary hardships on project owners receiving HOME funds to
provide affordable housing for low-income families.



 Projects Were Not Closed
 within the Required Timeframe


               The State did not close HOME projects in HUD’s computer systems within the
               HUD-required timeframe. Regulations at 24 CFR [Code of Federal Regulations]
               Part 92 provide that a HOME-funded project is not complete until it complies
               with all HOME requirements and the recipient has entered the required
               information into HUD’s Integrated Disbursement Information System. Recipients
               must enter the required information into HUD’s data systems within 120 days
               after the final drawdown of HOME funding, or the project is considered past due.

               In 2004, HUD notified the State that it was not properly closing projects in
               HUD’s data systems. At that time, HUD identified several hundred projects for
               which all awarded funds had been drawn down for more than 120 days but the
               State had not closed the projects in HUD’s systems.

               The State began taking steps to rectify the deficiencies, and by September 30,
               2006, only 51 past due projects remained unresolved. However, the past due
               projects had increased to 66, involving HOME funds of more than $2.9 million, as
               of November 30, 2006. A comparison of the two monthly reports showed that the
               State had successfully closed 10 past due projects in October and November, but
               another 25 projects had become past due by the time the November report was
               issued. This information indicates that the State is not making consistent progress
               in resolving past due projects in HUD’s systems or ensuring that it is currently
               closing projects within the 120-day deadline.




                                                5
Controls Were Not Adequate to
Ensure Proper Closure of
HOME Projects

           The State lacked adequate controls to ensure that it closed projects in HUD’s data
           systems within the required 120-day timeframe. This problem occurred because
           the State’s staff was not aware of all data entry steps needed for their internal
           system to accurately update and close projects in HUD’s systems. Therefore, they
           did not recognize that they had not fully closed the projects in HUD’s data
           systems until HUD notified the State in 2004 of its numerous past due projects.

            In addition, the State’s policies and procedures allowed subrecipients to draw
            down all HOME funds granted for rental housing projects without ensuring that
            the rental units were occupied. When a recipient closes a rental project that has
            vacant units in HUD’s systems, it negatively affects the recipient’s HOME
            performance ratings. The State was not closing completed rental projects until
            the project was fully occupied, which sometimes caused it to exceed the 120-day
            timeframe. According to the State, it has recently corrected this problem by
            changing its policies and procedures to require that it retain 10 percent of a rental
            housing project’s funding until the units have tenants. Once the units are
            occupied, the State will release the retained funding as the final drawdown and
            close the project in HUD’s systems.

            The State’s policies and procedures also did not ensure that it obtained the
            activity completion reports from subrecipients. Its policy was to disallow
            additional funding to subrecipients until they provided the reports. However,
            some subrecipients still did not comply. Without the reports, the State did not
            have the data needed to close projects in HUD’s systems. According to the State,
            it has improved its process for obtaining the reports.

            Further, the State could not close approximately five of the oldest past due
            projects due to computer programming errors. According to the State, it is
            working with HUD to resolve the issue.

HUD and the State Understated
HOME Accomplishments and
Caused Unnecessary Hardships

           By not implementing adequate controls that ensure complete and timely closure
           of HOME projects, the State is understating its true accomplishments and
           negatively affecting its HOME performance indicators and rankings. It is also
           causing HUD to understate HOME accomplishments nationally.




                                              6
             Further, these problems can cause project owners receiving HOME funds to have
             to provide affordable housing longer than necessary. Regulations at 24 CFR
             [Code of Federal Regulations] Part 92 explain that a project’s affordability period
             does not begin until the project is completed, the final drawdown of HOME funds
             awarded has been made, and all required data have been recorded in HUD’s
             systems. The affordability period is the length of time that a project owner
             receiving HOME funds must abide by HUD’s homeowner income limits on
             properties acquired or rehabilitated with HOME funds (excluding owner-occupied
             projects) or abide by HUD’s rental limits on rental properties.

             Because the affordability period begins when the project is fully closed in HUD’s
             data systems, any delays cause the project owner to have to extend the period that
             the owner is committed to providing affordable housing to eligible persons.
             Therefore, project owners cannot provide the housing to persons with income that
             exceeds HUD’s income limits, nor can the owners raise the tenant rents beyond
             HUD’s limits. This places an unnecessary burden on the project owner.


Conclusion

             The State has made progress in resolving past due projects. However, it still
             needs to resolve remaining past due projects and improve its controls to ensure
             that completed projects are consistently closed in HUD’s data systems within the
             120-day required timeframe.

Recommendations

             We recommend that the director, Community Planning and Development
             Division, Omaha Program Center,

             1A.    Verify that the State implements appropriate controls to ensure that it
                    closes HOME projects in HUD’s data systems within the required 120-day
                    timeframe.

             1B.    Monitor the State’s progress in closing projects currently exceeding the
                    120-day timeframe and ensure that the projects are closed properly and
                    expeditiously.




                                              7
                         SCOPE AND METHODOLOGY

Our review generally covered the period from July 1, 2003, through June 30, 2006. We began
our review by obtaining information on the State’s policies and processes for awarding,
monitoring, and closing subrecipient grants. Early in the review, we identified concerns with the
State’s efforts in closing projects; therefore, we focused our efforts in that area.

To achieve our objective, we conducted interviews with the State’s staff and staff of HUD’s
Omaha Office of Community Planning and Development. We reviewed the State’s policies and
procedures, hard-copy and computer-generated subrecipient grant files, and annual and
consolidated plans. We reviewed federal regulations, HOME performance reports and program
notices on HUD’s Web site, and previous HUD reviews of the State’s operations. We also
compared the State’s hard-copy and computer-generated grant records to HUD’s Integrated
Disbursement Information System data.

We evaluated the State’s actions in closing projects for 10 HOME grants. For its fiscal years
2004 and 2005, the State awarded 49 grants to subrecipients, totaling more than $8.7 million.
Nine of the subrecipients had spent all of their awarded funding, more than $2.2 million. We
reviewed the five highest dollar grants (totaling $2 million) to evaluate the State’s process for
closing projects. Based on the results of our initial review, we reviewed an additional five
grants. The State closed 205 grants in its fiscal years 2005 and 2006. We reviewed the five most
recently awarded grants (totaling $1.7 million). Nebraska awarded these grants in its fiscal year
2003.

We relied on computerized data contained in HUD’s Integrated Disbursement Information
System. We assessed the reliability of the data, performed sufficient tests of the data, and found
the data adequate to meet our audit objective. We also relied on the State’s computerized data to
identify subrecipient grants for review. We conducted sufficient tests of the data and found the
data adequate to use in selecting grants for review.

We performed on-site work at Nebraska’s Department of Economic Development in Lincoln,
Nebraska, from July through November 2006. We performed our review in accordance with
generally accepted government auditing standards.




                                                8
                             INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls
              We determined the following internal controls were relevant to our audit objectives:

              •       Compliance with laws and regulations – Policies and procedures that
                      management has implemented to reasonably ensure compliance with
                      HUD’s regulations regarding closing HOME projects.

              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.

 Significant Weaknesses


              We did not identify any significant weaknesses.




                                                9
Appendix A

                            AUDITEE COMMENTS




       The Housing Manager of the State Community and Rural
       Development Division provided the following comments on
       March 13, 2007, via e-mail:



       Thank you for the opportunity to provide comments regarding the HUD-OIG Draft report.

       As is referenced in the report, the State of Nebraska Department of Economic
       Development has been improving internal processes in order to achieve full compliance
       with the requirement to complete projects within 120 days of the final drawdown of funds
       on each project. The department, in cooperation with the HUD Omaha field office, will
       evaluate and amend policies as needed to obtain the necessary information from the
       department's grantees that will ensure that all data entered in the Integrated Disbursement
       and Information System is both timely and accurate.




                                                 10
